W IVER
SUPREME COURT OF THE UNITED STATES
No.

Supreme Court, U.S.
FILED

MAR 0 4 2021
OFFICE OF THE CLERK

20-1155
State of Minnesota

Jonas David Nelson

(Respondent) .

V.

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
C)

I am filing this waiver on behalf of all respondents.

0

I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).
Signature:

3/4/21

Date:

(Type or print) Name Edwin W. Stockmeyer, Assistant Attorney General

e Mr.

0 Mrs.

0 Ms.

Firm

Office of the Minnesota Attorney General

Address

445 Minnesota Street, Suite 1800

City & State

Saint Paul, Minnesota

Phone

(651) 757-1247

0 Miss

Zip 55101
Email ed.stockmeyer@ag.state.mn.us

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.
Andrew T. Tutt, Counsel for Petitioner
cc:

The Office of

Minnesota Attorney General Keith Ellison
helping people afford their lives and live with dignity and respect •

www.ag.state.mn.us

March 4, 2021

Supreme Court of the United States
Attn: Clerk's Office
1 First Street, NE
Washington, D.C. 20543
Re:. Jonas David Nelson v. State of Minnesota, No. 20-1155
Dear Sir or Madam:
Enclosed is a waiver of the right to file a response on behalf of Respondent, State of
Minnesota. I am not presently a member of the Bar of this Court. Should a response be requested,
the response will be filed a Bar member.
Sincerely,

EDWIN W. STOCKMEYER
Assistant Attorney General
(651) 757-1247 (Voice)
(651) 297-4348 (Fax)
ed.stockmeyer@ag.state.mn.us
Cc: Mr. Andrew T. Tutt, Counsel for Petitioner

RECEIVED
-3 1.Jr,"

MAR

1 6 2021

OFFICE OF THE CLERK
SUPREME COURT U.S.

445 Minnesota Street, Suite 1400, St. PO, MN 55101-210
Office: (651) 296-3353 • Toll Free: (800) 657-3787 • Minnesota'Fiel4: (800) 627-3529
An Equal Opportunity Employer Who Values Diversity s
n Printed on 30% Post-Consumer Material Paper

